Supreme Court, U.S.
FILED

FEB .0 1 2021
OFFICE OF THE CLERK

No. 20-

\0%

IN THE

Supreme Court of the United States
PHILIP JAY FETNER,
Petitioner,
v.
HOTEL STREET CAPITAL, LLC et al.
Respondents.

On Petition for Writ of Certiorari
to The United States Court of Appeals
for the Fourth Circuit

PETITION FOR WRIT OF CERTIORARI

February 1, 2021

Philip Jay Fetner, Pro Se
8080 Enon Church Road
The Plains, Virginia 20198
(540) 222-9693
pjayfetner@aol.com

LEGAL PRINTERS LLC • Washington, DC • 202-747-2400 • legalprinters.com

RECEIVED
FEB - 3 2021
•FFICE OF THE CLERK
SUPREME COURT, U.S.

GINAL

(i)

QUESTIONS PRESENTED
Petitioner asks this Court to review whether he
was denied a constitutional appeal on the false
preliminary premise that the appellate courts — both
the District Court for the Eastern District of Virginia
and the Court of Appeals for the Fourth Circuit lacked jurisdiction:
a) because the appeal to the District Court was
not based on a “final” order of the Bankruptcy Court
nor did the order appealed qualify otherwise for
jurisdictional purposes;
b) because the appeal to both courts was
“moot;” and
c) because the appeal to the Court of Appeals
was improper as the latter may not review a District
Court’s determination on whether a Bankruptcy
Court’s order was a final order.
The importance of this matter, aside from
correcting the manifest injustice to Petitioner of
wrongfully applying jurisdictional principles to
prevent an appeal on the merits, all as discussed
below, is that the ruling by the Court of Appeals
effectively guts a debtor’s mandated constitutional
right to an appeal in a wide range of circumstances,
including a fundamental misunderstanding of
mootness. Finally, it is not farfetched to suggest that
this case, if upheld or left alone, will drive another
nail in the already problematic coffin of an individual
debtor Chapter 11. The importance of this matter
will be argued further by Petitioner in this brief.

(ii)
PARTIES TO THE PROCEEDING IN THIS
COURT AND RULE 29.6 STATEMENT
HOTEL STREET CAPITAL, LLC
c/o Robert M. Marino, Esq.
REDMON, PEYTON & BRASWELL
510 King Street, Suite 301
Alexandria, Virginia 22314
BANK OF AMERICA/WILMINGTON SAVINGS
FUND SOCIETY
c/o Andrew Justin Narod, Esq.
BRADLEY ARANT BOULT
CUMMINGS, LLP.
1615 I. Street, N.W., Suite 1350
Washington, D.C. 20036
IRS
c/o Robert K. Coulter, Esq.
UNITED STATES ATTORNEY’S OFFICE
2100 Jamieson Avenue
Alexandria, Virginia 22314
STEPHEN S. ROSZEL VII, PER BANG-JENSEN,
EXECUTORS, SUSAN ROSZEL HARTZ
c/o William D. Ashwell, Esq.
MARK B. WILLIAMS & ASSOCIATES, PLC.
27 Culpeper Street
Warrenton, Virginia 20186
Alleged Creditors-Appellees

(iii)
(Cont.)
UNITED STATES TRUSTEE
do Jack Ira Frankel, Esq.
OFFICE OF THE U.S. TRUSTEE
115 South Union Street
Alexandria, Virginia 22314
Trustee-Appellee
Petitioner is PHILIP JAY FETNER
Debtor-Appellant
Respondents are indicated above. Petitioner is not a
corporation.

(iv)
TABLE OF CONTENTS
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING IN THIS
COURT AND RULE 29.6 STATEMENT.....

11

TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES

vi

JURISDICTION

1

OPINIONS BELOW

1

CONSITUTIONAL AND STATUTORY
PROVISIONS INVOLVED....................

1

INTRODUCTION

1

STATEMENT OF THE CASE

2

REASONS TO GRANT THE PETITION
I.
II.
III.
IV.

The Denial of the DS/P As a Final
Order..............................................
Discretionary Appeals...................
Mootness........................................
The Importance of Appeals in
Chapter 11.....................................

CONCLUSION

10
10
16
20
22
26

(v)
APPENDIX A
Appeal 19-2305
Judgment, Opinion, U.S. Court of Appeals
For the Fourth Circuit, August 24, 2020... la
Order (Denial of Rehearing), U.S. District
Court for the Eastern District of Virginia
October 22, 2019 ......................................... 7a
Order, U.S. District Court for the Eastern
District of Virginia, September 9, 2019 .... 8a
Order Denying Disclosure Statement,
U.S. Bankruptcy Court for Eastern District
of Virginia (Alexandria Division), May 30,
12a
2019
Order (Denial of Rehearing), U.S. Court of
Appeals for the Fourth Circuit, November 2,
2020
15a

(vi)
TABLE OF AUTHORITIES
Cases

Bullard v. Blue Hills Bank, 135
S.Ct. 1686 (2015).............

11, 12

Conn. Nat’l Bank v. Germain, 503 U.S. 249
(1992).................................. .....................

20

FTC v. Minneapolis-Honeywell Regulator Co.,
344 U.S. 206 (1952)..................................

10

First Owners Assn, of Forty Six Hundred v.
Gordon Props., LLC, 470 B.R. 364
(E.D. Va. 2012)............................. .......

17

In re Kassover, 343 F.3d 91
(2dCir. 2013) .........

10, 20

Moses v. CashCall, Inc., 781 F.3d 631
(4th Cir. 2015) ............................

20

Texas Extrusion Corp. v. Lockheed Corp.
(In re Texas Extrusion Corp.), 844 F.2d
1142 (5th Cir. 1988)..................................

12

United States Constitution
Art. Ill .............................
Fourteenth Amendment

passim
passim

(Cont.)

(vii)

Statutory Provisions
United States Code
11 U.S.C. § 1101, et seq.
11 U.S.C. § 1107..........
11 U.S.C. § 1108..........
11 U.S.C. § 1121(d)......
11 U.S.C. § 1125..........
11 U.S.C. § 1125(b).....
28 U.S.C. § 158(a)(1)....
28 U.S.C. § 158(a)(2) ....
28 U.S.C. § 158(a)(3)....
28 U.S.C. § 158(b).......
28 U.S.C. § 158(d)(1)....
28 U.S.C. § 1257 .........
28 U.S.C. § 1292(a)(1)...
28 U.S.C. § 1292(b).....

2
3
3
4
13
18, 26
10
6, 17
16, 20
12
10, 20
1
20
9, 17, 20, 26

Federal Rules of Civil Procedure
Fed. R. Civ. P. 59

5

Federal Rules of Bankruptcy Procedure
Fed. R. Bankr. P. 8004(d)
Fed. R. Bankr. P. 9023 ...

16
5

1
JURISDICTION
The Fourth Circuit Court of Appeals issued its
opinion in Appeal No. 19-2305 on August 24, 2020.
Petitioner’s timely petition for panel and en banc
rehearing was denied on November 2, 2020.
The jurisdiction of this Court is properly
invoked pursuant to 28 U.S.C. §1257.
OPINIONS BELOW
The opinions of the Fourth Circuit Court of
Appeals, the District Court for the Eastern District of
Virginia, and the Bankruptcy Court for the Eastern
District of Virginia are reproduced in Appendix A.
The opinions are unreported.
CONSITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Articled III and the Fourteenth Amendment to
the United States Constitution. Bankruptcy Code.
INTRODUCTION
The question presented concerns a Bankruptcy
Court’s denial of a Disclosure Statement prepared by
a Chapter 11 Debtor and the appeal of that denial.
Prior to briefing the appeal as filed in the District
Court, the United States Trustee moved to suspend
the briefing schedule and dismiss the appeal on
jurisdictional grounds: first, that the Bankruptcy
Court’s Order from which the appeal was taken was
not a “final” order; second, that the Order did not

2
satisfy any of the discretionary grounds for hearing
an interlocutory appeal; and third, the appeal was
rendered moot by the subsequent (to the Order)
conversion of this case from Chapter 11 to Chapter 7.
The District Court agreed without providing
any argument with all three of the United States
Trustee’s conclusions made in its preliminary motion.
The Court of Appeals upheld, again in conclusory
fashion without any argumentation to Petitioner’s
points in rebuttal, the District Court and added the
further ruling that the Court of Appeals was without
jurisdiction to hear the correctness of any
determination by the District Court as to the finality
of a bankruptcy court order or to discretionary
appeals thereof.
Both appellate courts, as an “alternative’
ground, ruled that Petitioner’s appeal was moot - not
equitably moot but presumably constitutionally moot,
thereby implicating the Article III jurisdictional
requirement of “case and controversy.”
The questions presented for this Court is
whether any of these jurisdictional bars were properly
decided here against Debtor or whether Debtor’s
appeal should be heard, on remand, and decided on
the merits.
STATEMENT OF THE CASE
1. Petitioner filed a voluntary petition under
Chapter 11 of the U.S. Bankruptcy Code, 11 U.S.C.
§1101 et seq. in the U.S. Bankruptcy Court for the
Eastern District of Virginia on September 7, 2017.

3

Petitioner timely filed his Schedules, Statement of
Financial Affairs, and other required documents.
2. Debtor was faced with four important (in
relative size) alleged creditors: the IRS (the smallest
by far); two companies, a national bank and what
Debtor has referred to as a sophisticated loan­
sharking private operation run from the law firm
representing him on many matters; and a judgment
creditor whose judgment was currently on appeal to
the Virginia Supreme Court. The private creditors
were all seriously contested, both as to liability and
amounts — long-standing disputes going back eight
years or more. In particular, Bank of America was a
creditor of a Virginia limited partnership of which
Debtor was general partner, but not Debtor
personally.
3. Petitioner remained in possession and control
of his assets as DIP pursuant to sections 1107 and
1108 of the Code. No creditors’ committee was
appointed. Debtor timely attended his obligatory
§341 Creditors’ Meeting, where the bankruptcy
schedules were discussed in detail and Debtor was
fully transparent as to his Chapter 11 intentions with
respect to challenging alleged debts, on the one hand,
and developing a reorganization plan dependent upon
future anticipated income, on the other.
4. On November 15, 2017, the largest contested
creditor by far, Bank of America (“BoA”), filed a lift of
stay motion to enforce a security interest in a property
where Debtor resided but did not own, rather
controlled through a limited partnership which was
the real owner. Debtor contested the motion, and
discovery schedules were established. Inter alia,

4
Debtor intended to challenge BoA creditor status,
secured or otherwise. No discovery was forthcoming
by BoA despite many extensions of time and hearings
and promises to the Bankruptcy Court, as well as to
Debtor. In June of 2018, BoA withdrew its motion for
relief from stay.
5. The exclusivity period for Debtor to file a plan
for reorganization initially set by statute (§1121(d))
was scheduled to expire on January 5, 2018. On
January 2, 2018, pursuant to the provisions of
§ 1121(d)(1) of the Code, Debtor filed a motion to
extend exclusivity for a period to end June 5, 2018.
The cause for the extension request was unresolved
contingencies with respect to the Roszels and BoA.
The motion was unopposed, and Debtor did not attend
the hearing. The Bankruptcy Court approved the
extension to June 5, 2018 by order entered February
2, 2008.
6. The Debtor filed a timely second motion on
June 2, 2018 to extend exclusivity a second time, for
four months, arguing that the same grounds which
previously justified the first extension not only
continued but had actually been exacerbated by the
continuing actions of the two contested creditors
involved. Debtor set the first available return date of
June 26, 2018 to hear the motion. Debtor had no
inkling of any opposition.
7. This time, two disputed creditors opposed the
motion - not the largest alleged creditor, who
represented nearly two-thirds of the total claims in
this case — one filing an opposition the day prior to
the opposition deadline, one filing an untimely
opposition. On June 26, a hearing was held in

5
Bankruptcy Court on Debtor’s motion. Debtor was
unable to attend because of a prior legal commitment
implicating his fiduciary duty to clients. Ruling from
the bench, the Court denied Debtor’s motion because
Debtor had not established sufficient cause to extend
further the exclusivity period. The Court also in her
remarks made clear that this Chapter 11
reorganization case should be treated simply as a
straight liquidation matter.
Moreover, the order
finally entered on July 16 specified that the
exclusivity period had terminated on June 5, 2018,
thereby refusing to give effect to the long-established
bankruptcy practice of tolling the deadline once an
extension motion was timely filed. Debtor believed
that such tolling was constitutionally required as part
of normal due process.
8. Debtor immediately on July 3 filed a motion to
reconsider the ruling from the bench. The motion
asked that Debtor be allowed for the first time to
testify at a new hearing, a true evidentiary hearing,
and, equally important, that Debtor be allowed to file
an exclusive plan of reorganization should the
extension be denied, in accordance with established
bankruptcy practice and constitutional due. process.
Debtor was present at the subsequent hearing held on
July 17, 2018 to reconsider but was not permitted to
testify. The Court denied the motion on procedural
grounds, ruling that Rule 59(e) of the Federal Rules
of Civil Procedure was not satisfied. (Bankruptcy
Rule 9023 incorporates Fed. R. Civ. P. 59 and a
motion to reconsider is usually treated as a motion to
alter or amend under Rule 59(c).)

6
9. The Debtor quickly appealed to the District
Court pursuant to 28 U.S.C. § 158(a)(2).
10. The District Court refused or failed to hold a
hearing or rule on the appeal for one year.
11. The appeal was finally denied on September
26, 2019 (rehearing was denied October 18, 2019),
which order was timely appealed to the Court of
Appeals for the Fourth Circuit. The Court of Appeals
sua sponte denied the appeal on the grounds of
equitable mootness. The matter is now on petition for
certiorari.
12. Meantime, the United States Trustee (“UST”)
filed a motion to convert the Chapter 11 case to
Chapter 7 on May 9, 2019. The movant has the
burden of proving that cause existed for conversion.
The UST gave as grounds for conversion three alleged
failures by Debtor as a DIP: Debtor had caused loss to
the estate; Debtor had engaged in “gross
mismanagement of the estate;” and Debtor had “failed
to confirm a plan of reorganization by statutory or
Court-imposed deadlines.” Both in its many papers
and at the hearing held on the conversion in June
2019, the UST failed to allege or produce any evidence
whatsoever for Debtor’s alleged failures, which
problem was recognized by the Bankruptcy Court
itself at the June hearing, but the Court determined
itself to fill in the blanks. In essence, the Court ruled
that Debtor had failed to provide a viable Disclosure
Statement/ Reorganization Plan, that Debtor’s
proposed sources of income were too risky or
speculative.
13. The order for conversion was executed on June
24, 2019, or so all the parties thought. An earlier

7
version issued June 13 also facially purported to be
the final order for conversion.
14. Debtor appealed the order of conversion using
the executed version of June 24, 2019 to calculate the
14-day period mandated by statute for filing a notice
of appeal. Before appellate briefs were filed (but well
after Debtor’s statement of issues and designation of
the record was filed), the UST filed a preliminary
motion for dismissal of the appeal, alleging that
Debtor had missed the statutory deadline of 14 days
for filing the notice of appeal because he had used the
wrong order.
15. Debtor would later testify to the District Court
that all the parties and the Bankruptcy Court itself
understood that the order of June 24, 2019 was to be
the operative order, replacing the initial order of June
13, which order was deemed incomplete. Debtor gave
several facial reasons why the changes were
substantive and the new order a genuine
replacement. The Debtor also made the essentially
equitable argument that the intent of all the parties
was clear and that due process policy grounds of
preferring that appeals be heard on their merits and
that the small delay of 11 days between the two orders
was meaningless, certainly nonprejudicial, as a
practical matter.
16. The District Court held, however, that the
earlier of the two orders was the operative order
because facially the difference between the two orders
was insignificant in substance. The District Court
expressed
sympathy
for
Debtor’s
equitable
presentation but noted that jurisdictional mandates

8

knew no equitable boundaries and concluded that the
appeal must be dismissed.
17. Debtor appealed to the Court of Appeals. On
April 20, 2020, the same day that the Court of Appeals
ruled on the exclusivity appeal, the Court also
dismissed the conversion appeal. The conversion
order is also part of the prior petition for certiorari.
18. As noted previously, before the UST filed its
conversion motion, Debtor on April 30, 2019, filed his
Disclosure Statement and Reorganization Plan
(“DS/P”) and a hearing in Bankruptcy Court was set
for May 28, 2019. The IRS, Wilmington Savings, and
Hotel Street Capital (“HSC”) had all filed objections
to the DS/P. The full transcript of the hearing must
be read to appreciate the extensive presentation by
Debtor and the limited specificity of the alleged
creditor inquiries. The alleged creditors called no
witnesses and introduced no exhibits. The Court
indicated four more or less technical problems with
the DS/P but emphasized that it was clear that
Debtor’s proposed supporting income was too
speculative to support a Reorganization Plan. An
Order denying the DS/P was signed on May 30, 2019.
19. The heart of the denial was that Debtor’s
financial projections were simply too speculative, a
flaw that would obviously entail a substantial
revision of the Plan. Nevertheless, Debtor was given
only five days, including a weekend, until June 6 to
file an amended plan, with a hearing to be held on
June 11, 2019, which day, not coincidentally, was the
hearing date previously established for the UST’s
conversion motion.

9
20. Recognizing the obvious and designed futility
of attempting to comply is so short a time with a plan
revision, Debtor filed a notice of appeal on June 13.
The basis for appeal was, inter alia, (i) the erroneous
denial of Debtor’s DS/P using a non-statutory
standard and (ii) the Order allowing only five days to
cure was a sham and a violation of due process. The
appeal also alleged clear bias and predetermination
by the Court for liquidation of Debtor’s residence, not
actually an asset of his estate.
21. Before briefs could be submitted, the UST filed
a preliminary motion to suspend the briefing schedule
and dismiss the appeal for failure of jurisdiction:
a. The Order of May 30, 2019 was
interlocutory.
b. Under 28 U.S.C. 1292(b), the best analogy
for weighing discretionary review, no
compelling reason for discretionary review
by the District Court could be found.
c. Mootness attached caused by conversion.
The District Court ordered on September 9, 2019,
after canceling at the last minute on three separate
occasions a hearing, in a short opinion that the UST
Motion should be granted.
22. Debtor filed a motion to reconsider on
September 23, 2019, stressing the importance of
appellate review and the context of an individual
debtor now struggling pro se with Chapter 11. The
District Court denied reconsideration on October 22,
2019.
23. Debtor appealed to the Court of Appeals on
November 18, 2019 and filed his Informal Brief on
December 16, 2019. In its informal reply brief, the

10
UST added an additional argument: the Court of
Appeals lacked jurisdiction to review the District
Court’s discretionary refusal to grant an interlocutory
appeal of the Bankruptcy Court Order despite the
clear text of 28 U.S.C. §158(d)(l), citing In re
Kassover, 343 F.3d 91 (2d Cir. 2013).
24. In a one-page order issued on August 24, 2020,
the Court of Appeals said that under 28 U.S.C.
§158(d)(l) the Court had jurisdiction only if both the
Bankruptcy Court and the District Court issued final
orders and that Kassover was precedent that the
District Court’s order was not a final order. The Court
of Appeals also agreed with the mootness alternative.
25. Petitioner moved for en banc rehearing but was
turned down on November 2, 2020.
REASONS TO GRANT THE PETITION
I. The Denial of the DS/P As a Final Order
There would seem to be no dispute that “final”
orders by any trial court are appealable as a matter of
fundamental due process in the American system,
although some lawyers and courts lose sight of the
fact that appeals have a constitutional mandate
attached. In the bankruptcy system, appeals also
have a statutory framework.
See 28 U.S.C.
§ 158(a)(1). The great divide between “final” and
“interlocutory” has been considerably narrowed in
bankruptcy, as is argued below, but a divide remains
and is consequential. Justice Black once famously
observed that few words as concepts had caused such
difficulty or caused more ambiguous mischief as
“final” when applied to appealable orders. See FTC v.

11

I
Minneapolis-Honeywell Regulator Co., 344 U.S. 206
(dissent) (1952). It is an easily observable fact that
bankruptcy courts out of necessity have a more
relaxed standard for what is a final order than non­
bankruptcy courts. That is because, especially in a
typical Chapter 11 case, one event builds upon
another and all the purpose-driven (and hence
fairness) goals of economy and efficiency argue for
resolving the issues when they arise, or soon
thereafter, rather than having the process continue
forward under some assumption that a particular
dispute has been resolved only to have to unravel a
mess much later. The fact that the subsequent mess
may even moot a later appeal, otherwise well taken,
should argue strongly that the finality requirement
be liberally applied as the only effective way to grant
appellate rights.
The UST has consistently relied upon the
conclusion that what makes, at bottom, the denial of
a disclosure statement in Chapter 11 interlocutory is
the opportunity generally afforded a debtor to correct
a deficient plan and refile a conforming version.
(Typically, this process can go back and forth several
times.) Thus, the denial cannot be said to be final —
the debtor still has an opportunity, which the debtor
controls, to file again. The UST also seems to take the
position here that a more blanket rule is appropriate
that no denial of a Chapter 11 disclosure statement
can ever be final, but nearly all pertinent cases cited
are premised on the fact of an opportunity to correct
designated deficiencies. The logical dichotomy that a
denial that cannot be corrected must be “final” holds.
The case of Bullard v. Blue Hills Bank, 135 S. Ct.

12
1686 (2015) is much relied upon by the UST, and
Debtor has approvingly cited Bullard as well.
Bullard is premised upon the opportunity
subsequently to correct.1
The law is no stranger to opportunities that are
said to be real but are illusory either by design or
practical realities. Suppose the Bankruptcy Court
here had announced that Debtor had until the end of
the day of the order to refile a confirming or corrected
DS/Plan. Would such an “opportunity” to correct be
regarded as anything but illusory, probably a sham
masquerading as a framework requirement? Indeed,
all debtors are supposed to have a chance to make
good on deficiencies in their disclosure statements
and plans; few sail through the first time unscathed.
What then of five or six calendar days, including a
weekend, for changes as fundamental as demanded
by this Bankruptcy Court? The answer is obvious: the
opportunity is illusory; the denial is final.
Debtor has suggested that he was entitled to
treat the denial as final because the Bankruptcy
Court knew exactly what it was doing and that the
timing would be impossible to meet, even if Debtor
was inclined to give it a fair try. In its context, Debtor
has referred to the Order as a sham in this respect,
1 The UST goes so far as to cite for example the case of In re Texas
Extrusion Corp., 844 F.2d 1142 (5th Cir. 1988) for the
proposition that a disclosure statement order is simply never a
final step in a plan of reorganization but Texas Extrusion
concerned the appeal from an order approving a DS/P! As
Bullard made clear, for 28 U.S.C. § 158(b) purposes, appealable
final orders “finally dispose of discrete disputes within the larger
case.” 135 S. Ct. at 1692.

13
primarily a so-called cure opportunity on paper
because the opportunity was required. Debtor in his
appeal papers raised the issue of judicial bias, and a
quick detour needs to be followed here.
The Bankruptcy Court as early as June 26,
2018, at the time of ruling on Debtor’s second motion
for an exclusivity extension, announced her view
(having never seen or heard personally from the
Debtor) that the Debtor was wasting time in Chapter
11 and should sell his residence in liquidation, pay off
his creditors, and be done with it. As Debtor has
argued in other appeal contexts, this pronouncement
by the Court was a wildly inappropriate statement
whose reasoning has infected almost every aspect of
this case. But Debtor is not arguing bias in this
Petition as grounds for a decision — only that Debtor
had raised the issue on appeal to the District Court
and could have been expected to flesh it out when
dealing with the merits of the appeal. It is telling that
neither the District Court nor the Court of Appeals
even mentioned Debtor’s central claim that the
Bankruptcy Court’s denial contained an illusory cure.
Practical lawyers know that bias is unpleasant
and not received well by brethren courts. Far better
to attack the underlying errors, which virtually by
definition exist for all to see. So too here. Debtor on
the merits was prepared to use the obvious inability
to attempt to cure as further evidence that the denial
was unlawful, principally because it did not, in fact,
apply the statutory standard of adequacy of
information provided in 11 U.S.C. §1125 but in effect
handicapped the likely success of the Plan and ruled
it too speculative. Debtor had concrete evidence that

14
the whole DS/P scenario under Chapter 11 had been
corrupted, which evidence had been outlined in his
preliminary appellate papers and which would form a
strong basis for his appeal here on the merits.2 The
UST filed, while the DS/P was being prepared and
submitted, a motion to convert this Chapter 11 matter
to a Chapter 7 status. Conversion requires “cause,”
and cause would have been clearly impossible, absent
a large fraud of some kind (never alleged), if a DS/P
was being presented and then voted on by creditors.
The UST had alleged three cause grounds, all
which were bogus - not supported even by the UST in
its moving papers. Nevertheless, the UST saw fit to
set - and the Court accepted - a hearing date on
conversion for June 11, 2019; all this was done before
the hearing on the DS/P was even held. The five-day
deadline subsequently given Debtor to cure and the
mandated time set by the Court to hear any cure
(June 11!) was established not relative to the
substance of the DS/P or any possible cure but purely
to the pre-existing conversion hearing deadline! This
2 As the Court will no doubt surmise, the UST had a vested
interest in attacking the DS/P. As outlined in the text, the UST
unaccountably filed a motion to convert the case from a Chapter
11 to Chapter 7 status while the Debtor’s DS/P was still under
consideration and even scheduled a hearing on conversion while
the DS/P was being put forward. To make matters worse, the
“for cause” grounds of the conversion motion, as argued by
Debtor and even recognized by the Bankruptcy Court itself, were
entirely bogus, just did not exist. The Bankruptcy Court sua
sponte found its own reasons to convert! All as set forth above in
the case history. By the time of the preliminary motion to
dismiss the appeal, the flaws of the UST’s motion to convert had
already been exposed.

15
prejudicial scenario was not putting the cart before
the horse so much as really organizing the cart to pull
the horse.
Argumentation that assigns an
interlocutory status to this Order, is superficial and
exults unfairly form over substance. As an obvious
matter of fact, a law firm of a dozen lawyers could
never have rewritten the DS/P in a five-day period
(with weekend) to satisfy the Bankruptcy Judge, let
alone a single practitioner.
HSC, a major alleged creditor was, after
expiration of the exclusivity period, permitted to file
its own DS/P or plan. The effort turned into a fiasco:
facially, the plan was impossible to perform and the
disclosure statement had a false core - that Debtor’s
principal residence, Coachman Farms, was owned by
the Debtor and was the major asset of the estate and
ripe for liquidation. Nevertheless, the Bankruptcy
Court gave HSC many months and multiple
extensions to file another acceptable plan to correct
deficiencies. The plan was eventually - nearly a year
later - withdrawn. The stark contrast to Debtor’s
treatment speaks volumes.
All this maneuvering by the UST and the
Bankruptcy Court evidenced the illegitimacy of the
DS/P denial and was to be argued on appeal. Facially,
there is much here to absorb, all now truncated by an
improvident motion to dismiss.
To repeat, no
appellate court ever addressed Debtor’s argument
that the denial Order of May 30, 2019 was plainly
final because no realistic cure was objectively
possible, let alone was never established in good faith.
In reality, the Bankruptcy Court on May 30, 2019
disposed of the reality of whether Debtor could ever

16
arrive at an approved plan.3 Intelligent command of
the record in this case shows that the Court was
determined to convert the case before denying the
Disclosure Statement.
Congress saw fit to establish a system of review
in the public interest. The practice and procedures by
all the participants should be used to promote the
ends of justice, not to defeat them.
II. Discretionary Appeals
The Bankruptcy Code and practice allows for
qualifying interlocutory orders to be appealed. While
Petitioner has never wavered from his conclusion that
the Order of May 30, 2019 was final and that the fiveday leave to amend was never more than a cosmetic
sham to create a record of compliance with normal
bankruptcy practices, Debtor also argued the
alternative that even if interlocutory, the May 30,
2019 Order qualified for appeal.
Debtor did not need specifically to ask for leave
of the District Court; simply filing the appeal based
on the theory of a final order in the Fourth Circuit
automatically allows discretionary consideration
should the order be considered interlocutory. See 28
U.S.C. § 158(a)(3) and Fed. R. Bankr. P. 8004(d).
Neither the Bankruptcy Code nor the Rules provide a
standard for evaluating a motion for leave to appeal
an interlocutory order. Many district courts regularly
3 The four “technical issues” raised in the Order of May 30, 2019
were essentially “confirmation” issues, not particularly relevant
to the adequacy of information standard.

17
look by analogy to the standard of 28 U.S.C. § 1292(b),
which governs interlocutory appeals in non­
bankruptcy cases, a sort of relief valve in lieu of
outright refusal.4 See First Owners Assn, of Forty Six
Hundred v. Gordon Props., LLC, 470 B.R. 364 (E.D.
Va. 2012). Under §1292(b), courts look to three
interrelated elements, all taken together: (i) does the
order produce a “controlling question of law,” (ii) as to
which there is “substantial grounds for difference of
opinion,” and (iii) whether an immediate appeal may
“materially advance the ultimate termination of the
litigation.” Unfortunately, some courts forget the
liberality inherent in bankruptcy matters, previously
noted above, that necessarily lead to broader more
flexible parameters for “final” orders and feel that
they should revert to strict construction, non­
bankruptcy style, of § 1292(b). There are no good
policy reasons for this myopia — if bankruptcy
deserves a broad standard for finality, it deserves
similar leeway for interlocutory orders.
The District Court here found simply that
there was no “controlling question of law at issue,”
noting that the determination of whether “adequate
information” is provided in the Disclosure Statement
is primarily a factual inquiry. The District Court
completely misstates Debtor’s appeal and what the
Bankruptcy Court did. The Bankruptcy Court itself
- and hence created the controlling question of law —
4 The analogy is said to be driven by 28 U.S.C. §158 (a)(2), which
states that the court should take bankruptcy appeals “in the
same maimer as appeals in civil proceedings generally taken to
the court of appeals from the district courts.” How much
concrete direction is available here is open to considerable doubt.

18
chose a different standard altogether from the Code
mandate.
Instead of the Code’s sufficiency of
adequate information that would enable a
hypothetical reasonable investor typical of holders of
similar claims to make an informed judgment (up or
down) about a plan, the Bankruptcy Court chose a
risk analysis - too speculative, it said. But applying
a different standard than what the Code mandates is
a matter of pure law. The technical issues raised by
the Bankruptcy Court were also purely matters of
law, although the intersection of law and fact can
become exceedingly philosophical.
What is clear is that Debtor claimed that the
Bankruptcy Court departed radically from 11 U.S.C.
§ 1125(b). What this Bankruptcy Court did, as alleged
by Petitioner, was effectively to handicap the
creditors and predict the result, notwithstanding the
qualifying adequacy of the information. The real test
is not necessarily a good chance of success on a vote
but whether adequate information (as defined in the
categories of information to be considered listed in
Section 1125) is given. Section 1125 seeks only to
guarantee a minimum amount of information.
Indeed, a creditor may well go elsewhere to receive
information from sources other than the disclosure
statement. Adequacy and adequacy only is the
controlling question of law here. Moreover, a question
of law is “controlling” if the reversal of the
Bankruptcy Court’s Order would have changed the
course of this Chapter 11 case - perhaps even
acceptance of a plan and avoidance altogether of
conversion.

19
Unfortunately, the cases are replete with
courts handicapping the information in a plan as too
risky. Aside from absurdity - a blind man seeing —
analysis of risk is quite beyond the competence of a
bankruptcy judge. Does the disclosure statement
disclose a plan that is unlikely to be accepted? These
last “standards” are unfortunate mutations from the
perfectly proper question of whether a plan has a
facial flaw (legal or factual) that would prevent as a
legal matter (illegality or impossibility) its
acceptance. The second leg of Section 1292(b) is
therefore more than satisfied - there is a clear and
substantial difference of opinion among the courts as
to whether the adequacy test is being abused or
applied in less than a strict manner.
The third test is whether an immediate appeal
may materially advance the termination of the
litigation. So long as the proper standard is insisted
upon, the likelihood of reaching a conclusion is
magnified manyfold. All this bankruptcy court had to
do was correctly rule on adequacy and let the creditors
vote. Handicapping creditors is a fool’s errand and is
as unnecessary as it is wrong. Simply voting will take
care of alleged information that does not rise to legal
levels of impossibility or the like. Courts who try to
protect the success of Chapter 11 plans are way out of
their league. Most Chapter 11 plans as originally
approved fail in fact. Not for lack of trying and not for
reasons of impossibility. Life does not always respect
a fresh start. But such matters go well beyond the
scope of what bankruptcy and judges are supposed to
be doing, which role is decidedly not what policy-

20
makers might do and decidedly what this Bankruptcy
Court engaged in.
The Court of Appeals here simply stated that
both the bankruptcy Order appealed is interlocutory
and the District Court’s order determining its
discretion in the matter is also not appealable, citing
In re Kassover, 343 F.3d 91, 94 (2d Cir. 2003) and
§ 158(d)(1). But the Court of Appeals has jurisdiction
over appeals from all final decisions of the District
Court under § 158(d). The District Court exercised its
discretion by reviewing the appeal on the merits and
rendering an appealable final order. See Moses v
CashCall, Inc., 781 F.3d 631 (4th Cir. 2015). The
District Court did not remand to the Bankruptcy
Court, specifically referred to the Order of May 30,
2019 (as did Debtor’s notice of appeal), and did not
defer consideration on the merits in any respect.
Kassover held that 28 U.S.C. §1292(a)(l) did not vest
the Court of Appeals with jurisdiction to review a
District Court’s exercise of discretion in denying leave
to appeal an interlocutory order of a bankruptcy
court, including injunctions, under 28 U.S.C.
§158(a)(3). The exact logic of Kassover is a bit difficult
but its interpretation should not defeat the clear
opinion of this Court in Conn. Nat’l Bank v. Germain,
503 U.S. 249 (1992), which made clear that Courts of
Appeals had jurisdiction to hear appeals from District
Courts’ decisions on the merits.
III.

Mootness

Both the District Court and the Court of
Appeals found that the subsequent conversion of this

21
case to Chapter 7 status created a mootness question
that would be resolved against Petitioner failing other
jurisdictional bars. Both courts are surely mistaken.
Mootness cannot attach where the predicate is at risk.
This conversion depended upon the failure of the
DS/P — indeed, as stated by the Bankruptcy Court, the
grounds for both were the same, a plan that was too
risky or speculative. The conversion here logically
would be set aside on remand if the Order of May 30,
2019 were overturned. The fruit of the poisoned tree
is not for eating.
The argument of mootness is both cynical and
frustrating. Debtor was effectively railroaded into a
Chapter 7 framework that he did not choose freely, a
sort of enforced involuntary bankruptcy without
satisfying the requirements of an involuntary
bankruptcy. Presumably what could be regarded as a
waiver by petitioning for Chapter 11, Debtor gives up
what ordinarily would be argued an unconstitutional
taking of his private property under the Fifth
Amendment. But Congress was careful to specify that
conversion necessitated a “cause,” that is, Debtor
abused the Chapter 11 system. In the absence of
some such fault by Debtor, the failure of a Chapter 11
process should simply result in a dismissal of the
petition. Here, there was no “cause,” Debtor has
appealed the conversion, which appeal is bogged down
on the collateral issue of whether he appealed timely
the right order, nothing to do with the merits of the
appeal. At least for the purpose of this appeal, the
point to the conversion is that it was dependent upon
the failure of Debtor’s DS/P.

22

IV. The Importance of Appeals
in Chapter 11
Petitioner is acutely aware that certiorari is
not for redressing every error below and with respect
to all mistakes of federal questions and procedures.
What we have here is a federal system of bankruptcy,
in fact a constitutional right, in which Chapter 11 was
created to give a qualifying debtor the right to a fresh
start pursuant to a reorganization plan (as opposed to
a liquidation under Chapter 7). Chapter 11 is not a
walk in the park, for debtors or their attorneys.
Appeals are a critical part of the system to ensure
compliance with the Code and fairness in the process,
and appellate courts should be particularly concerned
to see that the merits on appeal are reached — and the
whenever
constitutional mandate played out
possible.
This case is sufficiently troubling to
encourage this Court’s supervisory function to see
that courts below are at least pointed in the right
direction.
The importance of appellate review, including
oral argument (nowhere present here), in bankruptcy
can hardly be overstated. Of course, appellate review
is a cornerstone of the rule of law and due process
generally in the United States
trial courts
everywhere are not gods and frequently make
mistakes. Everyone deserves not a second bite of the
proverbial apple necessarily but a “fresh” opinion on
the law and procedures used to determine and apply
the legal rights of the parties involved,
But
bankruptcy courts have two heightened problems not entirely novel but exacerbated — implicating the

23
importance of available effective short-term appeals.
First, bankruptcy judges, whether green or working
in the face of a difficult system, can be remarkably
destructive to the adversarial process. Bankruptcy
represents a unique system in which judges are called
upon to play a complex role involving legal, economic,
and regulatory/administrative concerns that unfold
step-by-step in often unique combinations and
circumstances. The hallmarks of a seasoned trial
judge — strict impartiality, measured evaluation
(listening), thorough legal research, and attention to
detail - play well in the throes of a crowded docket
that frequently tempts a godlike authoritarian policy­
making as the default strategy. Eyes rolled when not
so long ago this Court ruled the underlying
bankruptcy system in important part was
unconstitutional. But the focus on “Article III judges”
ultimately served to encourage the bankruptcy
circuits to raise their game, and the resulting reforms
were designed to assure a wider and deeper base of
appellate activity and precedent to guide the
profession, judges and practitioners alike.
The
results seem to be mixed. There are some who have
written that the bankruptcy court viewed as simply a
“unit” of the District Court effectively eliminates the
latter as a practical matter as a true appellate body.
The District Court, it is said, is most likely to rubberstamp its unit’s efforts.
This writer does not
necessarily share that opinion or expectation, but his
is an amateur’s opinion.
Second, the bankruptcy system on the whole
tends to be the legal counterpart to the now infamous
political “swamp.” It’s a self-contained world of soi-

24
disant experts (counsel, judges, trustees, DOJ
specialists) whose mantra is that ‘outsiders’ just don’t
understand bankruptcy and its peculiarities. A frank
recognition of the difficulties of negotiating
“Chinatown” would simply be a healthy admission of
inherent teething problems, but in bankruptcy, too
often the result of all the esoteric wrappings is that
the whole purpose of the Congressional edifice is lost
or ignored. The fundamental purpose of the Code is
to enable a debtor a fresh start, to begin anew.
Bankruptcy is designed for the debtor, not the
lawyers’ pocketbooks or as an alternative debt
collection mechanism for creditors. Creditors are to
be treated equitably in the distribution of estate
assets, that’s the American way and the prompt and
efficient administration of claims, including the
centralization of disputes in one forum, is not
unimportant, but the thrust of bankruptcy should be
for the benefit of the debtor. A proposal or a result
that so obviously damages a particular debtor ought
to give everyone involved more than a little pause.
After several years and well over $100,000 in legal
costs (a matter of record), Debtor has a forced
conversion from Chapter 11 to Chapter 7 to his
“benefit.” The appellate level is Debtor’s only hope to
retrieve and revive the intent and purpose of the
Code. By way of further commentary, this Debtor
should emphasize that the most unsympathetic (or
non-focused) and harmful treatment in an already
difficult Chapter 11 is reserved for the individual
debtor. Courts seem to have difficulty separating out
individuals from the fog of corporate, large and small,
maneuvering. In practice, amounting to very

25
different bankruptcies and totally different equitable
considerations. In the corporate world, for example,
asset liquidation of some form is usually on the table.
It should additionally be emphasized that the
argument above of whether the so-called leave to
amend the DS/P was real or a sham is a question
going to the merits of the appeal, not properly to
whether the issues framed by Petitioner did not
properly allege a “final” order, the usual facial
criterion for looking at a motion to dismiss.
Neither the Bankruptcy Code nor the Rules
provide a standard for evaluating a motion for leave
to appeal an interlocutory order. The issues are
inevitably bound up with the same considerations
that determine whether an order is final or
interlocutory in the bankruptcy context. Appellate
courts, especially in Chapter 11, across all circuits
have a more relaxed standard for what is a final order
than non-bankruptcy courts. In the typical Chapter
11 process, one event builds upon another, like
constructing a house,
It is frequently more
economical, efficient, and fair to resolve issues on
appeal when they arise (or as soon thereafter as
possible), rather than continue to move the Chapter
11 process forward, somewhat artificially (under the
assumption that some particular dispute has been
resolved), only to have the so-called resolution
reversed much later with much painful unwinding.
Equally importantly, certainly from the perspective of
fairness, appeals can be mooted by decisions that
follow the original error. Often, interpreting the
finality requirement liberally may be the only way to
grant effective appellate rights.
So too with

26
evaluating a motion for leave to grant an
interlocutory order appeal.
Although it is not a requirement — and
certainly not treated as mandatory in this Circuit —
District Courts often look by analogy to the standard
set forth in 28 U.S.C. § 1292(b) governing inter­
locutory appeals in non-bankruptcy matters.
Nevertheless, the analogy holds water only if the
“relaxed” or “equitable” purposes of bankruptcy infuse
the application of the standard. It is always wise to
think in terms of the need to get the appeal resolved
in order to provide an effective remedy within the
bankruptcy framework.
The most important decision so far in this
whole matter is, of course, the order converting
Chapter 11 to Chapter 7, representing the loss of all
that the Debtor sought to achieve. But in the building
blocks that characterize all the twists and turns of a
Chapter 11 proceeding, the Disclosure Statement and
Reorganization Plan and the Court’s treatment
thereof has to be second in importance. The whole
purpose of the effort is to produce a workable plan,
and before a plan can be voted on, the Court must
agree that the disclosure statement accompanying
the plan contains “adequate information” under 11
U.S.C. § 1125(b), as defined in 11 U.S.C. § 1125(a).
CONCLUSION
This Court has a recent history of protecting
appellate jurisdiction and disapproving doctrines that
conflict with the bedrock principle of a federal court’s
obligation to hear and decide cases. Chapter 11 is

27
difficult, especially for the individual debtor with only
a reasonable pocketbook.
Meaningful appellate
oversight is crucial, not a gotcha game for lawyers or
esoteric doctrines. Goals of finality cannot erase the
integrity of the legal process and fundamental due
process. The petition for a writ of certiorari should be
granted.

Respectfully Submitted,

Philip Jay Fetner, Pro Se
Petitioner
8080 Enon Church Road
The Plains, Virginia 20198
(540) 222.9693
pjayfetner@aol.com

